               OFFICE OF
        THE INSPECTOR GENERAL

    SOCIAL SECURITY ADMINISTRATION

         BENEFITS PAID TO TITLE II
           BENEFICIARIES WITH
             A CHILD-IN-CARE

          June 2009   A-01-09-29070




     AUDIT REPORT




.
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      June 26, 2009                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Benefits Paid to Title II Beneficiaries with a Child-in-Care (A-01-09-29070)


           OBJECTIVE

           Our objective was to determine whether Title II beneficiaries who received benefits
           because they had a child in their care were entitled to the benefits paid to them.

           BACKGROUND
           Certain spouses and divorced spouses of retired or disabled workers may be paid
           benefits under Title II of the Social Security Act if they have an eligible child beneficiary
           in their care. In addition, benefits may also be payable to certain surviving spouses of
                               1
           deceased workers. To be eligible for child-in-care benefits, these beneficiaries must
           have in their care a

           •     child beneficiary under age 16,
           •     mentally disabled child age 16 or older, or
           •     physically disabled child age 16 or older for whom they are providing personal
                 services, such as feeding or dressing.

           The Social Security Administration (SSA) uses its Title II Redesign (T2RD) system to
           analyze information in the Agency’s systems each month to determine whether the last
           child in a beneficiary’s care is no longer entitled to benefits or has reached age 16. In
           most cases, the system should automatically stop child-in-care benefits when these
           situations occur.




           1
               The Social Security Act § 202 et seq., 42 U.S.C. § 402 et seq.
Page 2 - The Commissioner


The T2RD system also automatically identifies beneficiaries receiving child-in-care
benefits 5 months prior to the last child on the record attaining age 16. These
beneficiaries are sent a notice informing them that benefits will end when the last child
on the record reaches age 16 unless the child is disabled.

To perform our review, we identified 1,299 Title II beneficiaries—receiving child-in-care
benefits as of June 2008—who did not appear to have an eligible child in their care.
These cases consisted of two populations.

•   1,065 Title II beneficiaries who had a child in their care who was age 16 or older.
    There was no other child under age 16 on the records. We randomly selected
    200 cases from this population for detailed analysis.

•   234 Title II beneficiaries who had a physically disabled child in their care who was
    age 16 or older. There was no other child under age 16 on the records. In addition,
    the ZIP Codes for these child beneficiaries did not match the corresponding ZIP
    Codes of the Title II beneficiaries. Therefore, it appeared these Title II beneficiaries
    were not providing personal services for these child beneficiaries since they did not
    reside at the same address. We randomly selected 50 cases from this population
    for detailed analysis.

In total for the 2 samples, we randomly selected 250 cases for detailed analysis. (See
Appendix B for more information on our scope, methodology, and sample results.)

RESULTS OF REVIEW

We found that some beneficiaries who received child-in-care benefits were not entitled
to the benefits paid to them. Based on our review of the two samples, we estimate
about $3.0 million in incorrect benefit payments went undetected by SSA. This includes
about $2.6 million in overpayments to approximately 287 beneficiaries and about
                                                                  2
$450,000 in adjusted benefits to approximately 150 beneficiaries.

In addition, we estimate SSA will continue to incorrectly pay about $1.8 million over the
next 12 months to individuals who are no longer entitled to child-in-care benefits if the
Agency does not take action.




2
 These adjusted benefits are overpayments that are offset against underpayments due other family
members.
Page 3 - The Commissioner


                                                           Of the 250 beneficiaries in our 2 samples
                        Sample Results

                                                           •   68 (27 percent) were incorrectly paid
          181 Paid                       68 Incorrectly
                                         Paid $605,000         about $605,000 because they did not
        Appropriately                                          have an eligible child in their care, 3

                                                           •   181 (72 percent) were appropriately
                                                               paid child-in-care benefits, and

                                                           •   1 (1 percent) was still being reviewed
                                  1 Still Being                by SSA as of June 2009.
                                  Reviewed By SSA



BENEFICIARIES INCORRECTLY PAID CHILD-IN-CARE BENEFITS

Of the 250 beneficiaries in our 2 samples, 68 were incorrectly paid about $605,000 in
child-in-care benefits. Of this amount, about $584,000 to 65 beneficiaries went
undetected by the Agency. 4 This includes about $499,000 in overpayments to
55 beneficiaries and about $85,000 in adjusted benefits to 29 beneficiaries. 5 For
19 beneficiaries, both overpayments and adjustments to benefits resulted. See the
table below for a breakout of overpayments and adjustments.

                            Breakout of Overpayments and Adjustments
                                                                                      Total Amount
                              Number of          Overpayment     Adjustment
         Case Type                                                                 Incorrectly Paid Not
                                Cases              Amount         Amount
                                                                                     Detected by SSA
    Overpayment Only               36              $409,360                                 $409,360
    Adjustment Only                10                              $36,391                   $36,391
    Both Overpayment
                                   19                $89,743       $48,205                  $137,948
     and Adjustment
            Total                  65              $499,103        $84,596                  $583,699




3
 This includes two beneficiaries incorrectly paid about $68,083. SSA was still correcting these records in
June 2009.
4
    SSA identified about $21,000 in overpayments to three beneficiaries before our audit.
5
 Because of our audit, SSA saved about $346,000 by stopping benefit payments for 47 of these
beneficiaries that otherwise would have been paid over the next 12 months. For the 55 beneficiaries
overpaid, overpayment periods ranged from 5 to 143 months, with an average of about 20 months. The
median was 13 months.
Page 4 - The Commissioner


T2RD SYSTEM

SSA uses its T2RD system to detect individuals who may be incorrectly receiving
child-in-care benefits. However, within our 2 samples, we found that 65 beneficiaries
were incorrectly paid child-in-care benefits and these cases were not identified by the
T2RD system. We researched available data on SSA’s systems and contacted Agency
personnel to determine why T2RD did not stop child-in-care benefits to these
beneficiaries and found that

•   33 beneficiaries’ claims were processed incorrectly by SSA staff and, as a result,
    were not detected by T2RD; and

•   8 beneficiaries were no longer providing personal services for their physically
    disabled child—and T2RD does not have any automated controls to detect these
    types of cases.

We were unable to determine why the remaining 24 cases were not detected by T2RD.

Beneficiary Claims Processed Incorrectly

In 33 sample cases, SSA staff processed beneficiaries’ claims incorrectly and, as a
result, the cases were not detected by T2RD. For example

    •   In one case, necessary information about the child-in-care was not entered into
        SSA’s system. As a result, T2RD did not detect the case when the child reached
        age 16 in October 2007. In this case, the maximum amount of benefits payable
        to the family members was $473 per month. Therefore, the mother and child
        were each receiving $236 per month. Based on our audit, SSA stopped benefit
        payments to the mother and increased the child’s monthly check to $473. The
        Agency used $3,294 of the child’s underpayment to recover the mother’s
        overpayment.

    •   In another case, the Social Security number on which a child was entitled was
        input incorrectly by one digit when the claim was initially taken for child-in-care
        benefits. As a result, T2RD did not detect the case when the child reached
        age 16 in July 2007. Based on our audit, SSA stopped benefit payments and
        assessed an overpayment totaling about $20,000 from July 2007 to
        December 2008. SSA also used $1,700 of the child’s underpayment to recover
        some of the mother’s overpayment.

In addition, for 8 of the 33 cases, we found that SSA staff processed claims and
initiated benefit payments for beneficiaries even though the child in their care was over
age 16. Therefore, these beneficiaries were not due any of the benefits paid to them.
These eight beneficiaries incorrectly received about $69,000 in child-in-care benefits.
Page 5 - The Commissioner


For example, one child reached age 16 in July 2007. The child’s mother applied for
child-in-care benefits in August 2007 and SSA processed the claim—even though the
child was over age 16 (and not disabled). Based on our audit, SSA stopped the child-
in-care benefits and determined the beneficiary was never due any benefits. This
beneficiary was overpaid about $27,000 from August 2007 to December 2008.

Beneficiaries Not Performing Personal Services for Physically Disabled Child

SSA’s T2RD system does not have any automated controls to detect cases in which
beneficiaries are no longer providing personal services for their physically disabled
child. SSA relies on beneficiaries to notify the Agency when they are no longer
providing personal services. Therefore, 8 beneficiaries in our sample of 50 Title II
beneficiaries with a physically disabled child were not detected by T2RD and incorrectly
paid about $170,000 in child-in-care benefits.

For example, one beneficiary receiving child-in-care benefits had a different address
than her 38-year-old physically disabled child and, therefore, did not appear to be
providing personal services. Based on our referral, SSA determined the beneficiary
had not been providing personal services to her physically disabled child since
April 1997. This beneficiary was overpaid about $54,000 from April 1997 to
February 2009.

CONCLUSION AND RECOMMENDATIONS

We found that some beneficiaries who received child-in-care benefits were not entitled
to the benefits paid to them. Although the Agency identified some of the incorrect
payments before our audit, we estimated about $3.0 million went undetected. In
addition, we estimate SSA will continue to incorrectly pay about $1.8 million over the
next 12 months to beneficiaries no longer entitled to child-in-care benefits if the Agency
does not take action. Therefore, we recommend that SSA:

1. Review the remaining cases in our two populations in which it appears the Title II
   beneficiaries do not have an eligible child in their care.

2. Remind employees of the proper procedures to follow when processing child-in-care
   benefit payments.

AGENCY COMMENTS

SSA agreed with both recommendations. (See Appendix C.)




                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
T2RD     Title II Redesign
U.S.C.   United States Code
                                                                               Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we

   Reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

   Reviewed prior Office of the Inspector General reports.

   Obtained a file of Title II beneficiaries—with a child in their care age 16 or older—
    who were receiving benefits as of June 2008. We further narrowed this population
    by excluding cases in which there was any child on the record who was under
    age 16. From this file, we identified 2 populations:

        1,065 Title II beneficiaries who had a child in their care who was age 16 or
         older. We randomly selected 200 cases from this population for detailed
         analysis.

        234 Title II beneficiaries who had a physically disabled child in their care who
         was age 16 or older. 1 In addition, the ZIP Codes for these child beneficiaries
         did not match the corresponding ZIP Code for the Title II beneficiaries.
         Therefore, it appeared these Title II beneficiaries were not providing personal
         services for their child beneficiaries since they did not reside at the same
         address. We randomly selected 50 cases from this population for detailed
         analysis.

    In total, we randomly selected 250 cases from the 2 populations. For all 250 cases,
    we researched available data on SSA’s systems and/or contacted appropriate
    Agency employees to determine whether the Title II beneficiaries were, in fact,
    entitled to the child-in-care benefits paid to them.

We conducted our review between October 2008 and June 2009 in Boston,
Massachusetts. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our audit objective. The principal entities audited were the
Offices of Income Security Programs under the Deputy Commissioner for Retirement
and Disability Policy, and Retirement and Survivors Insurance Systems under the
Deputy Commissioner for Systems.




1
  We excluded cases in which the child had a mental disability because—according to SSA—decisions
regarding cases with mental disabilities are highly judgmental and will depend on the facts on a
case-by-case basis. SSA, POMS, RS 01310.035 § B.2.c.


                                                B-1
We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

SAMPLE RESULTS

                            Table B-1: Population and Sample Size
                                                     Population A        Population B        Total
Population size                                             1,065               234          1,299
Sample size                                                      200                50         250

   Table B-2: Beneficiaries Incorrectly Paid Who Were Not Identified by SSA—Where
                                Overpayments Resulted
                                                  Population A         Population B         Total
                                        Attribute Projections
Sample Results                                               47                8                55
Point Estimate                                             250                37               287
   Projection Lower Limit                                  204                21
   Projection Upper Limit                                  302                60
                                        Dollar Projections
Sample Results                                       $329,334           $169,769          $499,103
Point Estimate                                     $1,753,704           $794,519         $2,548,223
   Projection Lower Limit                          $1,229,773           $273,751
   Projection Upper Limit                          $2,277,634          $1,315,287
 Note: All Projections are at the 90-percent confidence level.




                                                   B-2
      Table B-3: Beneficiaries Incorrectly Paid Who Were Not Identified by SSA—Where
                                   Adjustments Were Made 2
                                                         Population A       Population B       Total
                                           Attribute Projections
Sample Results                                                       29               0            29
Point Estimate                                                      154               0          154
      Projection Lower Limit                                        117
      Projection Upper Limit                                        200
                                           Dollar Projections
Amount of Adjusted Benefits                                  $84,596                  $0     $84,596
Point Estimate of Benefits Paid                             $450,474                  $0    $450,474
      Projection Lower Limit                                $314,252
      Projection Upper Limit                                $586,695
    Note: All Projections are at the 90-percent confidence level.

In total, we estimate $3.0 million in benefits were incorrectly paid. This is the point
estimate from Tables B-2 and B-3 combined.

     Table B-4: Benefits SSA will Continue to Pay to Beneficiaries No Longer Entitled to
                                   Child-In-Care Benefits
                                                     Population A         Population B        Total
                                           Attribute Projections
Sample Results                                                  41                6                47
Point Estimate                                                218                28              246
      Projection Lower Limit                                  174                14
      Projection Upper Limit                                  268                49
                                           Dollar Projections
Sample Results                                          $311,532            $34,644         $346,176
Point Estimate                                        $1,658,908           $162,134        $1,821,042
      Projection Lower Limit                          $1,200,229            $61,736
      Projection Upper Limit                          $2,117,587           $262,531
    Note: All Projections are at the 90-percent confidence level.




2
 These adjusted benefits are overpayments that are offset against underpayments due other family
members.


                                                      B-3
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      June 12, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Benefits Paid to Title II Beneficiaries with
           a Child-in-Care” (A-01-09-29070)—INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached are our responses to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “BENEFTIS PAID TO TITLE II BENEFICIARIES WITH A CHILD-IN-
CARE” (A-01-09-29070)



We reviewed the subject report and agree with the findings and recommendations. Below are our
responses to the specific recommendations.

Recommendation 1

Review the remaining cases in the two populations in which it appears the Title II beneficiaries
do not have an eligible child in their care.

Comment

We agree. By November 20, 2009, we will review the remaining cases from the two populations
in which it appears the Title II beneficiaries do not have an eligible child in their care.

Recommendation 2

Remind employees of the proper procedures to follow when processing child-in-care benefit
payments.

Comment

We agree. We will issue an Administrative Message by August 1, 2009, reminding employees of
the proper procedures to follow when processing child-in-care benefit payments.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division


Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   Melinda Padeiro, Senior Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29070.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
